The Library of Congress
Office of the Inspector General




            Integrated Support Services
                           (Facility Services)



             Stronger Management Controls
             And Oversight Are Necessary to
                     Better Serve Customers

                  Audit Report No. 2001-PA-108

                                  September 2002
UNITED STATES GOVERNMENT                             LIBRARY OF CONGRESS

Memorandum                                          Office of the Inspector General

TO:           James H. Billington                                September 6, 2002
              Librarian of Congress

FROM:         Karl W. Schornagel
              Inspector General

SUBJECT:      Facility Services: Stronger Management Controls and
              Oversight Are Necessary to Better Serve Customers
              Audit Report No. 2001-PA-108


This transmits our final audit report on facilities services. The Executive Summary
begins on page i, and recommendations are on pages 5 through 18. The Integrated
Support Services response to our draft report is briefly summarized in the Executive
Summary and in more detail after individual recommendations appearing on pages 5, 7,
9, 10, 11, 13, 15, 16, and 18. ISS’s complete response is included as Appendix C.

ISS should provide an action plan addressing implementation of the recommendations,
including implementation dates, within 90 calendar days in accordance with LCR 1519-1,
Section 4.B.

We appreciate the cooperation and courtesies extended by ISS’s staff during the audit.

cc: Deputy Librarian
    Director, Integrated Support Services
    Facility Services Officer
    Manager, Facility Design and Construction
The Library of Congress                                   Audit Report No. 2001-PA-108
Office of the Inspector General                                         September 2002

                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY………………………………………………………………                                                i

BACKGROUND…………………………………………………………………………                                                   1

OBJECTIVES, SCOPE, AND METHODOLOGY…………………………….………..                                      2

FINDINGS AND RECOMMENDATIONS……………………………………………..                                          4

I.      Better Project Coordination and Planning Are Required……………….………..                4
        Recommendations……………………………………………………….……….                                        5

II.     Improving Management Information and Supervision Will Permit Facility
        Services to More Effectively Accomplish Its Mission…….……………………...                5
        Recommendations…………………………………………………………………                                         7

III.    More Flexible Organizational Arrangements and Empowering Employees
        Could Improve Customer Service……….…………………….…….……………. 7
        Recommendations….……………………………………………………………… 9

IV.     Oversight Is Needed to Ensure That Preventive Maintenance,
        Predictive Testing, and Inspections Are Performed……..……………….……….. 10
        Recommendations….……………………………………………………………… 11

V.      Quality Assurance Responsibilities Should Be Shifted to Contractors.…………... 12
        Recommendations….……………………………………………………………… 13

VI.     Customers Are Generally Satisfied With the Quality of Service
        But Disappointed With Timeliness and Communication…..…………….………..                 13
        Recommendations….……………………………………………………..……….                                      15

VII.    Staff Reductions Have Placed A Burden On Designers….….……………………. 15
        Recommendations….……………………………………………………………… 16

VIII.   Maintaining A Furniture Inventory Is Questionable…….………………………...                 17
        Recommendation…………………………………………..………………………                                        18

APPENDIXES……………………………………………………………………………                                                  19

        A. Consolidated List of Recommendations…………………………….………..                         19
        B. Summary of Customer Survey Questionnaire……………………...…………                       22
        C. Facility Services Response…………………………………………………….                               23
The Library of Congress                                         Audit Report No. 2001-PA-108
Office of the Inspector General                                               September 2002

                                  EXECUTIVE SUMMARY

Facility Services is responsible for planning and designing current and future space
needs; developing and implementing Library policy governing the structural, mechanical,
and custodial care of Library buildings and leased space; performing interior design of
furnishings and ergonomic work stations; administering the Library's food service
program; and providing Library-wide labor support. The Architect of the Capitol (AOC)
is in charge of all structural work at Library of Congress buildings and grounds.

We conducted a performance audit of Facility Services to assess the economy and
efficiency of its operations. The scope of our audit included all Facility Services FY
2001 activities except for the Public Programs Office and the management of off-site
facilities. We conducted tests; reviewed pertinent laws, regulations, and industry
standards; conducted on-site inspections; interviewed management and staff including
staff associated with facility management at other agencies; tested a random sample of
Requests for Service; and assessed customer satisfaction.

We determined that Facility Service’s customers were generally satisfied with the quality
of the Library’s design and construction services even though staff shortages have placed
a burden on designers. Customers are also satisfied with the quality of services provided
by the AOC (see Appendix B). Projects are generally performed in compliance with
applicable laws, regulations, and industry standards.

We also determined, however, that Facility Services does not effectively identify future
space requirements and prioritize project requests. Timeframes for completing services
are slow and communication with customers about work requests is infrequent. We were
unable to determine whether operations are cost effective because important information
needed for oversight of the workforce and sound decision-making is not recorded. There
are several opportunities for Facilities Services to better serve its customers by
streamlining job functions to improve efficiency, and obtaining better information to
manage its resources and improve customer service. Our findings and recommendations
are summarized below.

Better Project Coordination and Planning Are Required

The project approval process does not permit effective planning due to (1) insufficient
lead-time, (2) a lack of coordination with other affected offices such as the Safety Office,
(3) subjective project approval criteria, and (4) a lack of focus on efficient use of space.
As a result, projects are unnecessarily delayed and service units view the selection
process as biased. Facility Services recognizes that the project approval process is flawed
and plans to expand its planning lead-time and meet with the service units to jointly
estimate resource needs. We recommend that Facility Services implement its planned
two-year cycle for project planning, provide timely feedback to service units on projects
not approved, and analyze project alternatives and recommend solutions (see page 5).




                                             i
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

Improving Management Information and Supervision Will Permit
Facility Services to More Effectively Accomplish Its Mission

Facility Services lacks data regarding (1) staff time devoted to projects and other
activities, (2) workload trends, (3) the volume of services it provides to specific service
unit components, (4) furniture inventory turnover, and (5) facility inspections. The
Facility Design and Construction office does not have an automated system to facilitate
tracking and generating useful management information. Without data analysis, it is
difficult for managers to properly control the workforce and implement cost effective
strategic changes. We recommend that Facility Services implement an automated
tracking system for its request for service process, use time control reports to monitor
staff efficiency and more accurately account for incurred facilities costs, and develop and
document a systematic and strategic approach to facility inspections (see page 7).

More Flexible Organizational Arrangements and
Empowering Employees Could Improve Customer Service

Requests for Service are not processed in a timely manner and time sensitive projects are
not being completed within required timeframes. We believe that by delegating more
authority, Facility Services can streamline processes and thereby more effectively
respond to customer needs. We recommend that Facility Services develop criteria for the
request for service process that eliminates review by the supervisory designer, allow
service units to contact the contract representatives directly via e-mail for routine services
such as vacuuming and carpet cleaning, and issue service requests as soon as possible to
the appropriate service provider (see page 9).

Oversight Is Needed to Ensure That Preventive Maintenance,
Predictive Testing, and Inspections Are Performed

Facility Services does not have a plan to systematically ensure that the AOC provides
adequate preventive maintenance. AOC has a schedule for inspecting mechanical
equipment, building structures, and routine maintenance. However, in recent years its
workload has increased and it has fallen behind in maintaining the Library’s Capitol Hill
buildings. We recommend that Facility Services implement a systematic follow-up plan
to ensure that the AOC is performing preventive maintenance, conducting detection
testing as recommended by the General Services Administration, and conducting facility
condition surveys at least once every three years (see page 11).

Quality Assurance Responsibilities Should Be Shifted to Contractors

Significant staff resources are unnecessarily expended monitoring and overseeing three
contracts: cleaning services, food services, and ergonomic furniture design and
installation. The value added by the amount of oversight devoted to these contracts is
questionable and detracts from other primary staff duties. Facility Services should rely
on service contractors to provide quality assurance services using project delivery
contacting schemes that shift more responsibility for quality oversight to the contractor,



                                              ii
The Library of Congress                                        Audit Report No. 2001-PA-108
Office of the Inspector General                                              September 2002

ensuring that all contractors have a well-defined quality control plan, and implementing a
periodic inspection program to ensure quality services are received (see page 13).

Our complete list of recommendations is included as Appendix A.

In its response to the draft report, Facility Services agreed with 20 of the 23
recommendations. For the remaining three, it proposed alternative solutions that we
believe address the deficiencies noted in the findings. Facility Services disagreed with
our recommendation that service units should be able to forward certain types of
Requests for Service directly to the AOC. Facility Services believes the design staff
needs to review all Requests for Service before forwarding to the AOC, and that the
review is useful in reducing scheduling problems and priority issues within the AOC.
The intent of our recommendation was to expedite the process. We believe the design
staff review is acceptable only if Requests for Service can be reviewed and forwarded to
the AOC the same day they are received from the service unit.




                                            iii
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

                                     BACKGROUND

The Library of Congress headquarters consists of three Capitol Hill structures: the
Jefferson Building, the Adams Building, and the James Madison Memorial Building.
The Jefferson Building, completed in 1897, is a five-story structure totaling 890,000
square feet that includes a basement, cellar, attic, and top deck. Thirty-five individual
book stacks occupy approximately forty-four percent of the total available area. The
Adams Building, completed in 1938, is an eight-story structure, including a sub-basement
and cellar, totaling 762,000 square feet. Three quarters of the total available area is used
for the storage of books, most of which are found in twelve levels of book stacks in the
building's center. The Madison Building is the newest of the Library of Congress
Buildings. Completed in 1981, the Madison Building contains over 2,100,000 square feet
of space. It is the fourth largest government building in the metropolitan area. It follows
the Pentagon, the Ronald Reagan Building, and the Federal Bureau of Investigation
Building.

Facility Services together with the Architect of the Capitol (AOC) is responsible for
managing, operating, and maintaining the Library’s buildings in a manner that provides
for quality space and services consistent with the Library’s operational needs, and that
accomplishes overall agency objectives. Title 2 U.S.C, Chapter 5, Section 141, Duties of
Architect of the Capitol and Librarian of Congress states:

        “The Architect of the Capitol shall have charge of all structural work at the
        Library of Congress buildings and grounds (as defined in section 167j of this
        title), including all necessary repairs, the operation, maintenance, and repair of the
        mechanical plant and elevators, the care and maintenance of the grounds, and the
        purchasing of all equipment other than office equipment. The employees required
        for the performance of the foregoing duties shall be appointed by the Architect of
        the Capitol. All other duties on June 29, 1922, required to be performed by the
        Superintendent of the Library Building and Grounds shall be performed under the
        direction of the Librarian of Congress, who shall appoint the employees necessary
        therefore. The Librarian of Congress shall provide for the purchase and supply of
        office-equipment and furniture for library purposes.”

Facility Services is administratively under Integrated Support Services. LCR 211-13,
Functions and Organization of Integrated Support Services, Office of the Librarian,
issued June 12, 2000, details Facility Services functions. Facility Services is responsible
for planning and designing current and future space needs; developing and implementing
Library policy governing the structural, mechanical, and custodial care of Library
buildings and leased space; performing interior design of furnishings and equipment;
administering the Library's food service program; and providing Library-wide labor
support.




                                              1
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

                     OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted a performance audit of Facility Services to assess the economy and
efficiency of its operations and the extent to which desired program results are being
achieved. Facility Services together with AOC must manage, operate, and maintain the
Library’s buildings in a manner that provides for quality space and services consistent
with operational needs, and that accomplishes overall agency objectives. Our specific
objectives included determining if Facility Services:

    1) Effectively identifies future space requirements and prioritizes its projects.
    2) Ensures that space is used economically and efficiently.
    3) Provides cost effective service and minimizes costs and processing times to the
       extent practicable.
    4) Implements controls and management systems to measure, report, and monitor its
       programs.
    5) Coordinates its work with other offices to ensure efficient operations.
    6) Complies with applicable laws, regulations, and industry standards.

The scope of our audit included all of the Facility Services activities except for the Public
Programs Office and the management of off-site facilities including Fort Mead,
Culpepper, Taylor Street, Landover Annex, and Wright Patterson.

To accomplish the audit objectives, we (1) reviewed laws, regulations, and industry
standards pertaining to facility management; (2) interviewed Facility Services
management and staff, AOC management, and Safety Office staff regarding operations;
(3) conducted on-site inspections of the Library’s three Capitol Hill buildings; (4)
conducted telephone interviews with facility management staff at the General Services
Administration (GSA) Public Building Services, the Smithsonian Institution, and the
Veterans Administration; (5) discussed contract requirements with contracting officer’s
technical representatives; (6) examined pertinent records at Facility Design and
Construction (FD&C), AOC , and Contracts Services; (7) tested a random sample of
Requests for Service completed during FY 2001; (8) discussed selected service contracts
with contractor management; and (9) developed and issued a survey questionnaire to
Library management and administrators to assess customer satisfaction.

The criteria used to evaluate our audit evidence included the Standards for Internal
Control in the Federal Government (GAO/AIMD-00-21.3.1, November 1999),
applicable Library of Congress Regulations, and industry standards and best business
practices.

Before the start of this audit, Integrated Support Services (ISS) contracted with Martin
Contract Management, Inc. to conduct an abbreviated business assessment of Facility
Services. The contractor found that Facility Services: (1) lacked an automated
management system and customer surveys; (2) had no written policies and procedures;
and (3) utilized designers to perform duties other than designing such as project
management and furniture inventorying and ordering. The contractor also concluded that



                                              2
The Library of Congress                                       Audit Report No. 2001-PA-108
Office of the Inspector General                                             September 2002

the AOC should not be performing routine maintenance for the Library. Since the Martin
report was based upon a limited review, we independently tested and verified its
conclusions. This report addresses most of these areas in more depth and some additional
areas where we believe opportunities for improvement exist.

We conducted our work from September through November 2001 in accordance with
generally accepted government auditing standards. We met with the Facility Services
Officer and his staff on May 2, 2002, to discuss our findings and recommendations.




                                           3
The Library of Congress                                         Audit Report No. 2001-PA-108
Office of the Inspector General                                               September 2002

                          FINDINGS AND RECOMMENDATONS

GSA’s assessment of its most serious challenges mirrors the challenges Facility Services
faces. As of November 2000, GSA’s six most serious challenges were: management
controls, information technology solutions, procurement activities, human capital, aging
federal buildings, and protection of federal facilities and personnel. To be successful,
Facility Services needs to undergo a cultural change reflected in a shift from traditional
views on economy and efficiency to include a greater awareness of the needs of
customers, from reliance on formalized rules and procedures to a recognition of the need
for innovation, and from rigid organizational structures to flexible organizational
arrangements geared to achieve specific results. Further, Facility Services needs to better
manage its workforce. According to the General Accounting Office, “Only when the
right personnel for the job are on board and are provided the right training, tools,
structure, incentives, and responsibilities is operational success possible.”

I.       Better Project Coordination and Planning Are Required

The project approval process does not permit effective planning due to (1) insufficient
lead-time, (2) a lack of coordination with other affected offices, (3) subjective criteria,
and (4) a lack of focus on space efficiency. ISS does not ask service units to submit
proposed projects sufficiently in advance to permit the Executive Committee (EC)
sufficient time for review and approval before the start of a fiscal year. Moreover,
Facility Services does not involve the Safety Office and AOC in the planning process at
the earliest possible time, and AOC does not make a commitment of resources to Facility
Services on the projects. The effect is that projects are unnecessarily delayed and service
units believe the project selection process is biased.

An example of the need for better cooperative efforts is the move of the Loan Division.
Originally scheduled to move sometime around January 2001, the move had been
delayed until December 2001 due to unresolved safety issues between the Safety Office
and the AOC. We believe that the unforeseen delays Facility Services experiences, like
the Loan Division, would have been lessened with a more coordinated effort with the
AOC and Safety Office.

With less than two months remaining in the fiscal year, ISS asks the service units to
submit projects for the upcoming year. Facility Services reviews the project requests and
sorts out the ones that involve Safety or Compliance Office issues and projects that are
mission critical. Facility Services estimates the number of FD&C hours the project
should require and lists the projects in priority order until the available annual FD&C
hours are used up. In FY 2000 Congressional Research Service was almost the lone
project. After ISS reviews and prioritizes the projects, ISS submits the list of proposed
projects to the EC. The EC generally approves the plan after December 1. In FY 2001
the EC could not reach a consensus on the plan. The effect of delayed planning is that
FD&C designers and contractors cannot begin working on new projects at the start of the
fiscal year.




                                             4
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

For FY 2001 ISS allocated 487 of FD&C’s full-time equivalent (FTE) days to 25
projects. Criteria for prioritizing projects includes impact on Congress, safety/legal,
customer impact, and broad benefit. ISS allocated 99 percent of the total FD&C days to
four areas: Ergonomic Furniture Replacement (37.4%), Office of Security (23.4%),
Congressional Research Service (20.5%), Library Services (11.1%), and the Librarian’s
Office (6.6%).

Three areas in the initial ISS project review process require attention. First, the criteria
for the project ranking are subjective and are viewed by some service units as inequitable.
We agree that projects generated to resolve safety issues or to comply with laws and
regulations should receive priority. However, ranking projects justified as mission
critical is subjective and can be viewed as arbitrary. Second, we did not find evidence
that ISS analyzed project alternatives and recommended the best and preferred solution.
Third, service units we surveyed complained that once they submitted their list of
projects, Facility Services did not update the service unit on the status of the project
proposal or the reason Facility Services or the EC disapproved the project.

Facility Services recognizes that the project approval process is flawed and plans to
expand to a two-year plan instead of the current one-year. Furthermore, it plans to meet
with the service units to jointly estimate the resources needed for projects.

Recommendations

A.       Implement a two-year cycle for the Project Planning process.

B.       Establish objective criteria for ranking projects which integrates the facility
         planning process with the Library’s strategic plan and mission.

C.       Provide feedback to service units on projects not approved.

D.       Analyze project alternatives and recommend the best and preferred solution.

Facility Services’ Response and OIG Comments

Facility Services concurred with the four recommendations.

II.     Improving Management Information and
        Supervision Will Permit Facility Services to
        More Effectively Accomplish Its Mission

The lack of a strategic focus and information for sound decision-making impedes Facility
Services’ ability to effectively accomplish its mission. Specifically, data regarding (1)
staff time devoted to projects and other activities; (2) workload trends; (3) requests for
service breakdown by type of service and by service unit; (4) furniture inventory
turnover; and (5) facility inspections is not available. FD&C could not retrieve
information from its Computer Aided Design and Drafting (CADD) system concerning



                                              5
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

office square footage by grade level or by service unit, or trends for the past five years.
Similarly, the AOC could not provide data regarding the time and cost of completing a
service request. Also, Facility Services and AOC could not locate important control
documents such as copies of Requests for Service.

Without this data, Facility Services lacks management information to ensure that the
operations and maintenance of the Library’s buildings and building systems are: (1) cost
effective and energy efficient, (2) adequate to meet the Library’s mission, (3) meeting
nationally recognized standards, and (4) at an appropriate level to maintain and preserve
the physical plant assets consistent with available funding. By not consistently recording
labor hours for work requests and indirect hours spent on other activities, management
cannot readily determine whether (1) personnel are being utilized effectively and
efficiently, (2) personnel performance is acceptable, and (3) labor hours spent on other
than direct activities are properly controlled.

Our random sample of 58 Requests for Service initiated from October 1, 2000 through
August 21, 2001, revealed:

       The FD&C and the AOC could not locate the control document for more than 35
        percent of the requests for service we randomly selected for testing.

       The FD&C record keeping system did not permit us to determine the turnaround
        time for its processing of Requests for Service.

       The Request for Service did not contain complete information necessary for
        management analysis: Of the 16 Requests for Service located by AOC, only 1
        indicated the total time spent by the AOC, 7 did not indicate the date FD&C
        forwarded the request to the AOC, and 2 did not indicate the date AOC
        management forwarded the request to the appropriate shop.

       Neither the Facility Services nor the AOC maintained the Request for Service
        forms in an organized manner that would facilitate follow-up action.

       The AOC did not cross-reference its job control system to the Request for Service
        control number used by the Library.

GAO’s Standards for Internal Control in the Federal Government states, “Program
managers need both operational and financial data to determine whether they are meeting
their agencies’ strategic and annual performance plans and meeting their goals for
accountability for effective and efficient use of resources.” The Government
Performance and Results Act of 1993 reinforces the importance of accurate and complete
information systems in the achievement of mission, goals, and objectives. By ensuring
that accurate and timely data is available, Facility Services can better monitor Requests
for Service and make informed decisions.




                                              6
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

Both FD&C and AOC said they lacked the time to organize Requests for Service. FD&C
does not have an automated system to facilitate tracking and generating useful
management information. Without data analysis, it is difficult for managers to properly
control the workforce and implement cost effective strategic changes. During our
fieldwork, both FD&C and AOC were investigating automated systems to better manage
data and provide more timely, meaningful, and useful management information. AOC
was in the process of implementing a system currently used for its Senate operations.

Additionally, we found that the quality, frequency, and documentation of building
inspections, when performed, varied greatly. Inspections were not structured in a
formalized surveillance/observation program. Building inspections are the responsibility
of the three Facility Managers. Facility Services management assigned the FD&C
supervisor responsibility for supervising the three Facility Managers. The work of the
Facility Managers differs significantly from the design and construction duties performed
by the FD&C. This may be a contributing factor to the lack of documentation observed
for facility inspections. We believe that Facility Services needs to more closely monitor
the time of this staff. In our opinion, the supervision of the Facility Managers would be
more effective if assigned to one of the two Special Assistants within Facility Services.

Recommendations

A.      Implement an automated tracking system for Request for Service and coordinate
        with the AOC to ensure compatibility with any systems it uses.

B.      Use time control reports to monitor staff efficiency and more accurately account
        for incurred facilities costs.

C.      Develop a systematic and strategic approach to inspecting facilities and document
        the results of individual inspections.

Facility Services’ Response and OIG Comments

Facility Services concurred with the three recommendations.

III.    More Flexible Organizational Arrangements and
        Empowering Employees Could Improve Customer Service

Our tests and customer survey indicate that Facility Services is not processing Requests
for Service in a timely manner. We believe there are two primary causes for the
inefficiencies. First, the Request for Service is a cumbersome bureaucratic-laden process
with multiple approvals that do not add value. Second, Facility Services lacks the
necessary coordination and follow-up controls to ensure that quality service is delivered
within a reasonable amount of time. The effect is unacceptable delays in completing
jobs. Many Requests for Service have time sensitive deadlines: 17 of the 58 requests
sampled had a due date of “ASAP” or within five days of the request date. As discussed
in the next section of this report, customers are generally satisfied with the quality of the



                                              7
The Library of Congress                                                      Audit Report No. 2001-PA-108
Office of the Inspector General                                                            September 2002

service but frustrated with the lack of timeliness and follow-up communication. To more
successfully respond to its customers, Facility Services requires more flexible
organizational arrangements and needs to focus on employee empowerment as part of its
quality improvement efforts.

Our tests revealed the following untimely delivery of service and unnecessary approval
controls that require improvement:

        On average, 34 days elapse from the date that FD&C forwards the request to
         AOC and the date the work is assigned to a shop.
        On average, 20 days elapse from the time AOC sends Requests for Service to the
         appropriate shop and the time the shop completes the job.
        Service units prepare a Request for Service for simple requests such as vacuuming
         or hanging a picture. These requests require a service unit approval and then
         review by FD&C. 1
        The Supervisory Designer reviews all Requests for Service generated by
         Designers.
        Requests for Service are unnecessarily assigned to Designers rather than to the
         appropriate AOC shop.
        Designers first priority are projects and they work on Requests for Service only as
         time permits.

A design contractor hired by FD&C informed us that projects that normally take 3 to 4
days to design at other agencies take months to design at the Library. The contractor
cited these FD&C inefficiencies:

        The Library delays providing schedules to the contractor.
        The CADD system is not reliable or accurate.
        AOC often rearranges its priority schedule thereby affecting contractor deadlines.
        FD&C prepares estimated completion dates without AOC concurrence.
        The Library’s Safety Office changes requirements in the middle of projects.
        FD&C requires the contractor to physically check the surplus furniture inventory
         before ordering furniture.

GSA has been aggressive in empowering staff to look for ways to reduce administrative
barriers to promptly responding to customer needs. In simplifying existing rules,
operating procedures, and guidelines, GSA management eliminated many of the checks
and balances previously part of the control system, and now relies on a few broad
controls for documentation and review of actions. Facility Services should adopt a
similar strategy to improve customer service recognizing that fewer and broader controls
makes it essential that management ensures that the remaining controls be implemented,
emphasized, and consistently followed.

1
  While cleaning requests are normally handled by submitting a Request for Service, Facility Services
policies states that a rush request may be hand-carried on the short cleaning request form, which is taken to
the contract Contracting Officer Technical Representatives.


                                                      8
The Library of Congress                                         Audit Report No. 2001-PA-108
Office of the Inspector General                                               September 2002

To improve efficiency, Facility Services should give employees authority in many areas
to satisfy customer requirements that presently must be referred to the supervisor for
approval. For example, we noted that simple tasks originated by the Designers (such as a
request to vacuum an area) require approval by the Supervisory Designer. The
Supervisor reviewed 55 percent of the Requests for Service in our sample (32 of 58).
Similarly, we believe that requests not affecting the building structure such as moving
furniture and materials, cleaning carpet, or installing a shelf should not require service
unit approval and review by FD&C management. Moreover, we believe that it is
unproductive for FD&C to require service units to prepare a Request for Service and for
FD&C to input the Request for Service into their system for simple tasks.

Facility Services is evaluating options to reduce present inefficiencies. As shown above,
approximately 34 days elapse from the time FD&C forwards a Request for Service to
AOC and the time AOC assigns the job. According to AOC management, it does not
have the resources to immediately respond to all service requests as they had been able to
do in the past due to an increase in service requests and projects and unforeseen special
projects such as the replacement of thousands of sprinkler heads.

During our fieldwork, the Library and AOC were negotiating to permit the Library to
contract for services for the design and execution of space modification projects within
the James Madison Building. If an Interagency Agreement is signed, funds will be
transferred from AOC to the Library to cover these services previously exclusively
provided by AOC. AOC informed us that since it was responsible for the building in
accordance with 2 U.S.C, Chapter 5, Section 141, there is some reluctance to permit
outside firms to perform work that may affect the building structure. In our opinion,
AOC could oversee the contracted work and still ensure no adverse effect to the building.

Similar to the proposed Interagency Agreement, we believe that Library staff
“handymen” could more efficiently accomplish many of the job requests forwarded to
AOC. In our sample, 9 of the 36 jobs assigned to AOC did not necessarily require a
skilled position (jobs like removing screws from a wall, gluing a shelf part, repairing a
door that slams, patching and touch-up painting of walls, and hanging a picture frame).
Prior to year 2000 AOC’s workload permitted efficient handling of jobs not requiring a
highly paid, skilled professional. Now, however, AOC’s attention is primarily focused
on maintaining the Library buildings’ vast and ageing mechanical equipment and
building structure.

Recommendations

A.      Develop criteria for processing Requests for Service that do not require review by
        the supervisory designer.

B.      Allow service units to contact the COTR directly via email for vacuuming or
        carpet cleaning.

C.      Implement an automated management tracking system.



                                             9
The Library of Congress                                                      Audit Report No. 2001-PA-108
Office of the Inspector General                                                            September 2002

D.       To the extent practicable, issue Requests for Service as soon as received to the
         appropriate AOC shop, Buildings Management, Chimes, or Collections
         Management Division.

E.       Develop criteria whereby Requests for Service can be sent directly to the
         appropriate shop rather than to the designers.

Facility Services’ Response and OIG Comments

Facility Services concurred with recommendations B, C, and D. In lieu of
recommendation A, Facility Services proposes developing “criteria for processing
Requests for Service so that the review by the supervisory designer would be limited to
requests submitted to the AOC.” This is an acceptable alternative and addresses our
finding that Facility Services needs to expedite the Request for Service process.

Concerning recommendation E, Facility Services contends “all AOC Request for
Services need to be reviewed by the design staff before being forwarded to the
AOC/LOC Superintendent’s Office for distribution to the appropriate shops.” Facility
Services believes this review is useful in reducing scheduling problems and priority
issues within the AOC. The purpose of our recommendation is to expedite the Request
for Service processing. If the design staff can review and forward the Request for
Service the same day as received, we agree that this recommendation may not be
necessary.

IV.      Oversight Is Needed to Ensure That Preventive Maintenance,
         Predictive Testing, and Inspections Are Performed

The Office of Compliance’s Fire Safety Inspection of the Library’s Buildings Report,
January 25, 2001, found that AOC had not performed preventive maintenance in
accordance with national consensus standards. We found that Facility Services, with
responsibility for the custodial care of the Library buildings, does not have a plan to
systematically ensure that AOC provides adequate preventive maintenance. Facility
Services management believes that AOC is responsible for the building mechanical
equipment, except for a limited amount of equipment purchased by the Library.
However, LCR 211-13, Functions and Organization of Integrated Support Services,
June 12, 2000, states that ISS functions include “Overseeing the structural, mechanical,
and custodial care of Library buildings and leased space…” In view of the negative
findings disclosed by the Office of Compliance’s fire safety inspection, we believe it is
vital that Facility Services adopt a more proactive role to ensure that AOC provides an
aggressive facility management program and the use of applicable diagnostic tools 2 for



2
 Applicable diagnostic tools to evaluate the mechanical and facility equipment include (1) oil analysis for
wear metals and lubricant properties, (2) vibration analysis of bearings, (3) ultrasonic sound analysis for
leaks, and (4) infrared thermography scans of electrical equipment for heat buildup or loss, and for roof and
installation failure.


                                                     10
The Library of Congress                                                    Audit Report No. 2001-PA-108
Office of the Inspector General                                                          September 2002

predictive testing. A weak or nonexistent preventive maintenance program 3 could result
in more emergency work and costly repairs.

In recent years, AOC’s workload has increased and as a consequence, it has fallen behind
in building maintenance. We confirmed that the AOC has a schedule for inspecting
mechanical equipment and the building structure, and a schedule for routine maintenance
such as painting. Each AOC shop is responsible for preventive maintenance in their
respective areas. For example, on a monthly basis the Electric Shop tests the ground fault
receptacles and the battery back-up lighting. Every six months the shop cleans the
variable speed drive. The Air Conditioning Shop adjusts and calibrates more than 1,000
pneumatic thermostats (one floor per month), replaces bag filters and the pure filter
tablets in the Madison Building on a yearly basis, and performs preventive greasing and
checks bearings every six months.

We also verified that the Facility Managers monitor the air quality in the restrooms.
GSA’s real property policies require federal agencies to assess indoor air quality as part
of safety and environmental facility assessments. Our customer survey (see Appendix B)
indicated that this is an area that needs to be closely monitored. For the four questions
we asked regarding indoor air, all four questions received an average score that was
under the survey overall average of 3.35, with two of the questions receiving an average
score under 3.

As the Library’s three buildings age, it is critical that Facility Services ensures that AOC
performs the necessary preventive maintenance in accordance with national consensus
standards. Preventive maintenance is the cornerstone of any good maintenance program.
Lack of an effective preventive maintenance program results in reactionary management,
as breakdown repairs become the normal business activity. The Office of Compliance
performed its inspection in reaction to a fire at the Capitol Hill Complex. Preventive
maintenance should not be reactionary.

Recommendations

A.      Implement a systematic follow-up plan to ensure that the AOC is performing
        preventive maintenance and conducting detection testing as recommended by
        GSA for building maintenance.

B.      Conduct facility condition surveys at least once every three years. Facility
        Services may consider using an architect-engineering firm or construction
        management firm to conduct the assessment.

Facility Services’ Response and OIG Comments

Facility Services concurred with the two recommendations.


3
 Preventive maintenance is the planned, scheduled periodic inspection, adjustment, cleaning, lubrication,
parts replacement, and minor repair of equipment and systems.


                                                    11
The Library of Congress                                         Audit Report No. 2001-PA-108
Office of the Inspector General                                               September 2002

V.      Quality Assurance Responsibilities
        Should Be Shifted to Contractors

Facility Services unnecessarily expends significant staff resources monitoring and
overseeing three major contracts: cleaning services, food services, and ergonomic
furniture design and installation. We believe the reason for the excessive oversight is
Facility Services’ tendency to micromanage projects. The effect is that an already limited
staff have less time for their main duties such as project design and systematic facility
inspection. Additionally, staff morale is low due to feelings that the staff designated
Contracting Officer Technical Representatives (COTR) take on more responsibilities
without additional compensation. In this period of budget tightening, we believe that
Facility Services must rely upon service contractors to provide quality services without
the level of oversight and inspection that Facility Services personnel presently perform.
One impact-reducing strategy that should be considered is using project delivery
contacting schemes that shift more responsibility for quality oversight to the contractor.
The necessary underpinnings to a more successful contract oversight initiative include
performance based contracting, a well-defined contractor quality control plan, and less
direct oversight by the COTR.

Six Facility Services staffers are involved with three contracts. A GS-12 and a GS-13 are
assigned as co-COTRs for the cleaning contract. COTR responsibilities for the food
service contract occupy a significant amount of time for a GS-12 Facility Manager. The
COTR meets weekly with the Cafeteria Manager, plus the COTR and the Director for
ISS meet quarterly with the corporate contractor. Additionally, the Library has a Food
Committee responsible for overseeing the food service operations. COTR
responsibilities for the Peck and Peck design and project oversight contract require
almost the full time of the design supervisor and a significant amount of time for two
other designers.

We used GSA as criteria for efficient and effective facility operating procedures. GSA’s
Public Building Services (PBS) has moved away from prescriptive contracts that specify
frequency, quantity, and the type of maintenance activities to performance based
contracting. This change, to a large extent, was necessitated by the reduction of
personnel resources experienced by the PBS during the past several years. PBS now
relies upon service contractors to provide quality services without the level of oversight
and inspection PBS personnel performed in the past. A similar strategy should be
implemented at the Library. Facility Services staff should ensure that the contractor
performs quality assurance. Facility Services inspections should place emphasis on
assessing the effectiveness of the contractor’s quality control program.

A well-defined contractor quality control plan is a tool that Facility Services should use
to effectively ensure quality services are received. The plan should represent a
contractor’s internal quality control system and address the following: (1) methods and
techniques for implementing a quality control process; (2) responsibility for inspections
and detection of deficiencies; (3) corrective actions that will be monitored and performed;
(4) maintenance standards; (5) responding to occupant complaints; and (6) maintenance



                                            12
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

of inspection documentation. The contractor for the ergonomic furniture installation
informed us that unclear or differing standards made quality control a problem at the
Library. According to the contractor, what is acceptable for one designer for a project
may not be acceptable to another designer on another project.

Additionally, we believe that the Food Committee could serve a more useful role if it
focused more on assessing safety and sanitation issues, comparing prices at other
agencies, and performing quality assurance. We found that the Library did not have a
long-term plan for the food service areas. Instead, Facility Services calls the contractor at
the end of the year if it has extra money available for fix-up. A long-term strategic
approach is needed to better ensure the food service areas meet the needs of the staff and
public. Additionally, the Cafeteria Manager informed us that the Library has not
inventoried the Cafeteria equipment since December 1999. According to ISS
management, inventory of the Library’s capital property is the responsibility of the ISS
Logistics Section.

Recommendations

A.      Use project delivery contacting schemes that shift responsibility for quality
        oversight to the contractor.

B.      Ensure all contractors have a well-defined quality control plan that addresses: (1)
        methods and techniques for implementing its quality control process; (2)
        responsibility for inspections and detection of deficiencies; (3) corrective actions
        that will be monitored and performed; (4) maintenance standards; (5) responding
        to occupant complaints; and (6) maintenance of inspection documentation.

C.      Implement an inspection program utilizing a qualified inspector to ensure that
        quality contract services are received. Inspections should be used to monitor and
        evaluate contractor quality control programs by observing whether they are
        effective in assuring quality performance.

D.      Ensure that the ISS Logistics Section inventories the Library’s capital cafeteria
        property.

Facility Services’ Response and OIG Comments

Facility Services concurred with the four recommendations.

VI.     Customers Are Generally Satisfied With the Quality of Service
        But Disappointed With Timeliness and Communication

Library managers and administrative staff surveyed are generally satisfied with the
quality of the work provided by FD&C designers and the various AOC shops, but
disappointed in how long it takes and with follow-up communication (see Appendix B).
To more promptly respond to customer needs, we believe Facility Services needs to



                                             13
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

delegate more authority to front-line employees. The overall average satisfaction rating
for all questions was 3.35 out of a possible 5. We used 3.35 as a basis for comparison for
individual questions. Specific findings from our survey indicate the dichotomy of the
quality versus the timeliness:

       Respondents rated the quality of space alteration/modification almost 10 percent
        higher than the overall survey average but rated the timeliness of the service
        almost 20 percent lower than the overall average.

       Seven of the nine questions regarding the competency, knowledge, skill, and
        courtesy of the Facility Services and AOC staff scored over the overall average.
        However, the two scores under the average involved availability and timeliness of
        response.

       All six questions regarding procedures scored less than the overall average with
        follow-up communication 15 percent under the overall average.

Although Facility Services asks that service units route requests through them, only 44.9
percent of the respondents contact Facility Services or their Directorate contact when
they require service. Twenty-four percent of the respondents indicated that they contact
AOC directly when they need service, and another 17 percent indicated that depending
upon the service, they might call either office. Service units contact the service providers
directly in an effort to obtain speedier service. Respondent’s comments to our survey
illustrate frustration with FD&C’s communication and paper processing:

        “There are too many steps, unclear guidelines, unclear who to contact.”
        “If I could call Building Services and ask them directly for services it would be
         more expeditious.”
        “FD&C’s communication concept is poor.”
        “FD&C is too enamored with paperwork; does not put customers needs first.”
        “Requests are often lost in a black hole down there (FD&C) and the only way to
         get action on them is to pester and harangue their staff.”

We believe that by delegating more authority, Facility Services can streamline processes
and thereby more effectively respond to customer needs. Empowered front-line
employees can “make it right” immediately rather than having to wait for management to
get involved. Delegating more authorities for routine tasks also gives managers greater
opportunities to concentrate on problems or policy-level issues.

We also surveyed Library staff regarding satisfaction with the cleaning service. Survey
results indicated satisfaction with the cleaning contract with some complaints regarding
restroom cleaning. All three questions we asked regarding building cleaning received an
average rating higher than the overall survey average. However, the ratings for the four
questions involving the restrooms were all less than the overall average and 2 of the 4
questions had an average rating of less than 3 out of a possible 5. Many respondents
complained about the towel dispensers in the Madison Building. Although apparently a


                                            14
The Library of Congress                                            Audit Report No. 2001-PA-108
Office of the Inspector General                                                  September 2002

minor finding, the number of complaints indicates to us that this may be an area that
Facility Services needs to address. Comments included:

        “Paper towel dispensers always packed too full, tear them getting one out.”
        “Towel dispensers are terrible.”
        “Invest in decent quality paper towels and dispensers (roll type) so that floors are
         not covered with bits of paper.”
        “Shredding towels.”
        “Paper towel dispensers improperly filled so that you can’t get the paper out.”
        “The paper towel holder is terrible.”

We believe that our recommendations to automate the Request for Service process will
improve the efficiency of the processing and permit service units to directly track the
progress of their request, and provide FD&C increased control through better follow-up
capability. Additionally, our recommendations to permit service units to contact service
providers directly for tasks that do not affect the building structure should improve
efficiency.

Recommendations

A.      More closely monitor the restroom cleaning.

B.      Investigate installing new paper towel dispensers.

Facility Services’ Response and OIG Comments

Facility Services concurred with the two recommendations.


VII.    Staff Reductions Have Placed A Burden On Designers

Unfilled budgeted positions and transfers of other positions have negatively impacted
FD& C’s performance. At the time of our fieldwork, the Computer Aided Design and
Drafting (CADD) Specialist and the Construction Coordinator positions were vacant and
two administrative positions had been transferred to other offices. The effect has been
that the Facility Designers have taken on project oversight and CADD responsibilities
thereby limiting the amount of time available for interior design and space planning
services. A consequence of not filling the specialist position is that the CADD system is
not dependable and does not provide reliable information. Although the contract with
Peck and Peck included CADD services, we found the contractor spent only 24 hours on
CADD labor in FY 2000 and 49 hours in FY 2001.

GAO’s Standards for Internal Control in the Federal Government emphasizes the
importance of effective management of the workforce to achieve desired results.
According to GAO “Only when the right personnel for the job are on board and are
provided the right training, tools, structure, incentives, and responsibilities is operational



                                              15
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

success possible.” Effective control activities require that Facility Services has a specific
and explicit workforce planning strategy, linked to the overall strategic plan, that allows
for identification of current and future human capital needs. ISS management should
implement procedures to ensure that personnel with appropriate competencies are
recruited and retained, including a formal recruiting and hiring plan with explicit links to
identified skill needs.

The Facility Services situation is similar to what other agencies’ facility organizations
have experienced. Seven of nine agencies’ facility organizations responding to a GAO
audit (GAO/GGD-00-172R Study on Facility Design Reviews dated July 11, 2000)
experienced significant downsizing between 1994 and 1999, on the order of 20 to 50
percent reduction of in-house staff positions. During the early stages of downsizing, the
responding agencies simply tried to do more with less. However, this adaptation became
untenable at a certain point. Like the Library, these agencies adopted outsourcing
functions as an impact-reducing strategy. Included in the outsourcing were the functions
of oversight of design review and construction inspection. This was intended to reduce
the intensity of in-house oversight activities.

At the time of our fieldwork, ISS was in the process of posting the Construction
Coordinator position which has been vacant since December 1997. Without a
Construction Coordinator, designers are spending time on arranging for furniture to be
moved, carpet to be installed, and overseeing the construction project instead of
designing office space.

Likewise, the lack of a GS-13 CADD Specialist for 1½ years has impacted the work of
the designers as well as the design contract. The designers must edit/update the CADD
system. Moreover, FD&C’s designers take extra time to measure floor sites and
physically verify floor duct and electrical locations because they do not have confidence
that the information in the CADD system is accurate. The CADD system also limits the
number of firms bidding on the ergonomic design contract. Facility Services requires
that any contractor awarded the contract use the Library’s CADD system because FD&C
does not want to take on the burden of making sure a contractor's system will translate
properly to the Library’s CADD system.

Advances in computer-aided design and other technologies increase the importance of
technology support in the design process. We believe that the hiring of a CADD
technician and the upgrade or replacement of the current system is critical. Further, the
CADD system should be compatible with the system used by the AOC. Presently, the
AOC and the FD&C have separate CADD drawings that may not agree.

Recommendations

A.      Fill the CADD Specialist and the Construction Coordinator positions.

B.      Upgrade or replace the current CADD system.




                                             16
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

Facility Services’ Response and OIG Comments

Facility Services concurred with recommendation A and did not concur with
recommendation B. Facility Services stated that the deficiencies in the present CADD
system are more the result of a multi-year lapse in CADD technical management and in-
house applications support. In lieu of recommendation B, Facility Services proposed
hiring “a CADD Specialist to analyze the current CADD system and determine whether
the system could be used more efficiently, or be upgraded or replaced.” We believe this
alternative addresses our recommendations.

VIII. Maintaining A Furniture Inventory Is Questionable

FD&C’s perpetual furniture inventory system is manual and neither real time or available
on a database, and does not include the value of inventory items. Designers cannot rely
upon the inventory book to be accurate. Without an automated system, it is difficult for
FD&C to justify the cost of maintaining the furniture inventory. Moreover, FD&C
cannot readily determine the inventory turnover for each item. This information is
critical in determining surplusing decisions. In our opinion, transferring responsibility
for furniture inventory to the Logistics Section is more appropriate.

LCR 211-13, Functions and Organization of Integrated Support Services, states that
Facility Services is responsible for “…performing interior design of furnishings” and
Contracts Services is responsible for “…developing and implementing policies and
programs concerning the Library's procurement and contracting….” We believe that
logistics staff have the technical expertise and experience to better manage the inventory
function.

The lack of a reliable automated inventory system has contributed to Facility Services
inefficiencies and failure to provide timely service. For each request for furniture, FD&C
designers physically go to the inventory room to see if the item is available because they
cannot rely upon the information in the inventory system. The designer prepares a
manual record for each item taken from or added to the inventory. The supervisory
designer records this information into a logbook on an irregular basis. The necessity to
physically go to the storage room to verify if an item is available is a contributing factor
to the lengthy time experienced by service units when ordering furniture. In our opinion,
inventory management is an inappropriate activity for the professional designers.

We examined the inventory book and calculated the number of days in which a designer
used inventory furniture or parts and the days a designer returned furniture or parts to
inventory. Inventory action occurred for 55 of 156 days tested (January 2001 to June
2001) or 35.3 percent. Designers used materials from inventory on 39 of 156 days, or 25
percent. However, we could not determine the cost of the inventory reused. Though
FD&C uses the inventory, we question the efficiency of recording the inventory if staff
still has to go to the storeroom to check availability.




                                            17
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

The supervisory designer believed that the use of surplused furniture and parts has saved
the Library thousands of dollars. However, since inventory records do not assign a cost
or value to the surplused furniture, it is not possible to calculate how much is actually
saved. We contacted a property management specialist at GSA to determine how GSA
handles furniture inventory. The Specialist told us that GSA’s experience has been that
with the trend toward new system furniture, GSA found that the inventory of older
furniture was collecting dust.

Recommendation

Transfer furniture inventory responsibilities to the Logistics Section.

Facility Services’ Response and OIG Comments

Facility Services concurred with the recommendation.

Major Contributors To This Report

Anita Scala, Assistant Inspector General
Patrick Cunningham, Audit Manager




                                             18
The Library of Congress                                           Audit Report No. 2001-PA-108
Office of the Inspector General                                                 September 2002

                                                                              APPENDIX A
                                                                                  (Page 1 of 3)

                           Consolidated List of Recommendations

I.       Better Project Coordination and Planning Are Required

A.       Implement a two-year cycle for the Project Planning process.

B.       Establish objective criteria for ranking projects which integrates the facility
         planning process with the Library’s strategic plan and mission.

C.       Provide feedback to service units on projects not approved.

D.       Analyze project alternatives and recommend the best and preferred solution.

II.      Improving Management Information and
         Supervision Will Permit Facility Services to
         More Effectively Accomplish Its Mission

A.       Implement an automated tracking system for Requests for Service and coordinate
         with the AOC to ensure compatibility with any systems it uses.

B.       Use time control reports to monitor staff efficiency and more accurately account
         for incurred facilities costs.

C.       Develop a systematic and strategic approach to inspecting facilities and
         document the results of individual inspections.

III.     More Flexible Organizational Arrangements and
         Empowering Employees Could Improve Customer Service

A.       Develop criteria for processing Requests for Service that do not require review
         by the supervisory designer.

B.       Allow service units to contact the COTR directly via email for vacuuming or
         carpet cleaning.

C.       Implement an automated management tracking system.

D.       To the extent practicable, issue Requests for Service as soon as received to the
         appropriate AOC shop, Buildings Management, Chimes, or Collections
         Management Division.

E.       Develop criteria whereby Requests for Service can be sent directly to the
         appropriate shop rather than to the designers.



                                             19
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

                                                                            APPENDIX A
                                                                                (Page 2 of 3)

IV.     Oversight Is Needed to Ensure That Preventive Maintenance,
        Predictive Testing, and Inspections Are Performed

A.      Implement a systematic follow-up plan to ensure that the AOC is performing
        preventive maintenance and conducting detection testing as recommended by
        GSA for building maintenance.

B.      Conduct facility condition surveys at least once every three years. Facility
        Services may consider using an architect-engineering firm or construction
        management firm to conduct the assessment.

V.      Quality Assurance Responsibilities
        Should Be Shifted to Contractors

A.      Use project delivery contacting schemes that shift responsibility for quality
        oversight to the contractor.

B.      Ensure all contractors have a well-defined quality control plan that addresses: (1)
        methods and techniques for implementing its quality control process; (2)
        responsibility for inspections and detection of deficiencies; (3) corrective actions
        that will be monitored and performed; (4) maintenance standards; (5) responding
        to occupant complaints; and (6) maintenance of inspection documentation.

C.      Implement an inspection program utilizing a qualified inspector to ensure that
        quality contract services are received. Inspections should be used to monitor and
        evaluate contractor quality control programs by observing whether they are
        effective in assuring quality performance.

D.      Ensure that the ISS Logistics Section inventories the Library’s capital cafeteria
        property.

VI.     Customers Are Generally Satisfied With the Quality of Service
        But Disappointed With Timeliness and Communication

A.      More closely monitor the restroom cleaning.

B.      Investigate installing new paper towel dispensers.

VII.    Staff Reductions Have Placed A Burden On Designers

A.      Fill the CADD Specialist and the Construction Coordinator positions.

B.      Upgrade or replace the current CADD system.



                                             20
The Library of Congress                                          Audit Report No. 2001-PA-108
Office of the Inspector General                                                September 2002

                                                                            APPENDIX A
                                                                                (Page 3 of 3)

VIII. Maintaining A Furniture Inventory Is Questionable

Transfer furniture inventory responsibilities to the Logistics Section.




                                             21
The Library of Congress                                                  Audit Report No. 2001-PA-108
Office of the Inspector General                                                        September 2002

                                                                                      APPENDIX B

                    Summary of Customer Survey Questionnaire4
       (Ratings based on a scale of 1 for very dissatisfied to 5 for very satisfied.)

Ratings greater than 3.5 included:
              Internal Features, Lighting                  4.00
              Internal Features, Directional Signs         3.63
              Internal Features, Handicapped accessibility 3.56
              Elevators, Dependability                     3.52
              Elevators, Ride Quality                      4.17
              Elevators, Cleanliness/appearance            3.66
              Building Cleaning, lobby                     3.79
              Building Cleaning, personal space            3.59
              Building Cleaning, frequency                 3.69
              Quality of Repairs/Service Calls             3.59
              Quality of Alteration                        3.57
              FS and AOC Staff, courtesy                   3.71
              FS and AOC Staff, professionalism            3.68
              FS and AOC Staff, reliability                3.56
              FS and AOC Staff, knowledge                  3.81
              FS and AOC Staff, technical competency 3.79
              FS and AOC Staff, understanding needs        3.59

Ratings Less than 3:
              Indoor Air, Ventilation                                2.69
              Indoor Air, Quality                                    2.62
              Restroom, Cleanliness                                  2.97
              Restroom, Supplies                                     2.90
              Timeliness of Alteration                               2.79
              Follow-up Communication                                2.88

Internal Features:
3 of 4 ratings greater than overall average and all above 3.0

Elevators:
3 of 4 ratings greater than overall average and all above 3.0




__________________________________

4 We judgmentally selected 58 Library Administrative Officers and Division Chiefs for our survey. The
Library Services Program Officer who is responsible for approving all Library Services Requests for
Service (approximately 50 Requests for Service per month) was also included in the survey. We adapted
the survey from a GSA Public Buildings Survey developed by the GSA jointly with the Gallup
Organization to collect information to improve the work environment in GSA operated buildings.



                                                  22
The Library of Congress                Audit Report No. 2001-PA-108
Office of the Inspector General                      September 2002

                                                  APPENDIX C
                                                      (Page 1 of 4)




                                  23
The Library of Congress                Audit Report No. 2001-PA-108
Office of the Inspector General                      September 2002

                                                  APPENDIX C
                                                       (Page 2 of 4)




                                  24
The Library of Congress                Audit Report No. 2001-PA-108
Office of the Inspector General                      September 2002

                                                  APPENDIX C
                                                       (Page 3 of 4)




                                  25
The Library of Congress                Audit Report No. 2001-PA-108
Office of the Inspector General                      September 2002

                                                  APPENDIX C
                                                       (Page 4 of 4)




                                  26
